WAIVE

7 Supreme Court, U.S.

FILED

MAY 0 1 2021

SUPREME COURT OF THE UNITED STAT

SOFFICE OF THE CLERK

No. 20-7771
David Nilsson, et al.

David J. Bator, et al.
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

Q

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street,
Washington, D.C. 20543).
Signature:c" --Date:

v,}

4/30/21

(Type or print) Name David R. Griffith, Esq.

0

Mr.

®Ms.

Firm

Griffith, Horn & Sheehan, LLP

Address

1530 Humboldt Road, Suite 3

City & State

Chico, California

Phone

(530) 812-1000

0

Mrs.

0 Miss

Zip 95928
Email david@davidgriffithlaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
e uired.
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cove, :

CC:

Anthony J. Bator
Sierra Conservation Center
5150 O'Brynes Ferry Road
Jamestown. CA 95327

Alva EIVED
MAY 1 1 2021
g LE
SUPREME COUR
T U S.

PROOF OF SERVICE OF DOCUMENT
I am over the age of 18 and not a party to this case. My business address is:
1530 Humboldt Drive, Suite 3, Chico, CA 95928
On the date set forth below, a true and correct copy of the foregoing document entitled:
WAIVER
was served in the following manner:
SERVED BY UNITED STATES MAIL:
On April 30, 2021, I served the following persons and/or entities at the last known address(es) in
this case by placing a true and correct copy thereof in a sealed envelope in the United States mail,
first class, postage prepaid, and addressed as follows:
Anthony J. Bator
Sierra Conservation Center
5150 O'Brynes Ferry Road
Jamestown, CA 95327

I declare under penalty of perjury under the laws of the United States that the foregoing is true
and correct.
DATED: April 30, 2021.

By:
Steven Chamberlin

LAW OFFICES

GRIFFITH HORN & SHEEHAN, LLP
DAVID R. GRIFFITH
david@davidgriffithlaw.com
ADAM M. HORN
adam@adamhornlaw.com

1530 Humboldt Road, Suite 3
Chico, CA 95928
www.griffithandhorn.com

JAMESON E.P. SHEEHAN
jameson@griffithandhom.com

T 530.812.1000
F 530.809.1093

April 30, 2021
Clerk of the Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Bator, et al. vs. Nilsson, et al.
Case No. 20-7771

Dear Clerk:
Enclosed please find Respondents' Waiver. Because this case clearly does not warrant
review by the Supreme Court, Respondents do not intend to respond to the petition for certiorari
unless requested to do so by the Court.
GRIFFITH, HORN & SHEEHAN, LLP

David R. Griffith, Esq.
Enclosure
Client
cc :
Via Email Only

RECEIVED
MAY 1 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

